CERTIFICATE OF SERVICE
NO. 20-481
GE Capital Retail Bank
Petitioner,
v.
Nyree Belton
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the NYREE
BELTON BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same by Fedex 2Day, prepaid for delivery to the following address.
Matthew S. Hellman
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001
(202) 639-6000
mhellman@jenner.com
Counsel for GE Capital Retail Bank

Lucas DeDeus

February 3, 2021
SCP Tracking: Carpinello-30 South Pearl Street-Cover Orange

